No.

IN THE
SUPREME COURT OF THE UNITED STATES
JOHNNIE LEE JORDAN JR.- PETITIONER
VS.

SECRETARY, FLORIDA DEPARTMENT
OF CORRECTIONS, --RESPONDENT(S)
PROOF OF SERVICE
I, Johnnie Lee Jordan Jr., do swear or declare that on this date.
2020, as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PA UPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows: Office of the Attorney
General, Criminal Appeals Division, 3507 E. Frontage Rd., Ste. 200, Tampa, Florida
33607.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

v)

J2

, 2020

bhnnie Lee Jordan Jr., D

PROVIDED T
CROSS CITY C.l. DN

JUL
for mailing

116938—‘

/

